Matthew H. Frederick
Deputy Solicitor General

Matthew.Frederick@texasattorneygeneral.gov
(512) 936-6407

February 25, 2021
Via E-File and Federal Express
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
sharris@supremecourt.gov
Re:

Sheppard v. Lumpkin, No. 20-6786, Motion to Extend Time to File
Response to Petition for Writ of Certiorari

Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, Respondent respectfully moves for a second
extension of the time for filing a response to the petition for writ of certiorari in
Sheppard v. Lumpkin, No. 20-6786.
The response is currently due on March 5, 2021. A 31-day extension, until April 5,
2021, is needed because of the press of business from numerous complex matters
with deadlines near the current deadline, which require significant time and
attention from the undersigned counsel and other counsel assisting with this
matter. Those matters include the appellant’s reply brief in Lewis v. Hughs, No. 2050654, to be filed in the Fifth Circuit on March 2, 2021, and the appellant’s reply
brief in Texas Alliance of Retired Americans v. Hughs, No. 20-40643, to be filed in the
Fifth Circuit on March 3, 2021.
No prejudice would arise from the requested extension, and the Petitioner does not
oppose this extension.

P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

Letter to Mr. Harris, Clerk
February 25, 2021
Page 2
For the foregoing reasons, Respondent respectfully requests an extension of the
deadline for filing a response to the petition for writ of certiorari, creating a new
deadline of April 5, 2021.
Sincerely,
/s/ Matthew H. Frederick
MATTHEW H. FREDERICK
Deputy Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Tel.: (512) 936-1700
Fax: (512) 474-2697
matthew.frederick@oag.texas.gov
Counsel for Respondent Bobby Lumpkin
cc:

W. Alan Wright

P os t Of fic e Box 12548 , Aust in, Texa s 7 8 7 1 1 - 2 5 4 8 • ( 5 1 2 ) 4 6 3 - 2 1 0 0 • www. texa satto r neyg eneral .gov

